No. 19-1098

In the Supreme Court of the United States
NATIONAL FOOTBALL LEAGUE, ET AL.,
Petitioners,
v.
NINTH INNING, INC., ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF OF EXPERT ANTITRUST
ECONOMISTS AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
CHRISTOPHER J. KELLY
Counsel of Record
Mayer Brown LLP
Two Palo Alto Square,
Suite 300
Palo Alto, CA 94306
cjkelly@mayerbrown.com
(650) 331-2000
Counsel for Amici Curiae
Expert Antitrust Economists

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES..................................... iii
INTEREST OF THE AMICI CURIAE ...................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ...................................................... 1
ARGUMENT .............................................................. 5
I.

Critical Procompetitive Incentives Are
Promoted By A Principle That A Venture
Can Control How To Sell And Distribute
What Only The Venture Itself Can
Create. ................................................................ 5
A. Ventures That Create Products Are
Particularly Procompetitive. ...................... 5
B. Investment Incentives Are Critical
To Venture Formation And
Competitive Positioning. ............................ 8
C. The Avoidance Of Free Riding On
Venture Success Is Central To
Protecting Those Incentives..................... 10

II.

There Is No Risk To Ex Ante Competition
From A Principle That Permits
Collaborations To Control How They
Distribute And Sell What Only They Can
Make. ................................................................ 13
A. At Formation, No Ex Ante
Competition Exists In The Sale Of
The Venture Product. ............................... 13

ii
TABLE OF CONTENTS—continued
Page
B. In Operations, No Team Can
Compete As A Firm Independent Of
The Venture Product. ............................... 16
III. Antitrust Challenges To Purely
Intraventure Restraints Necessarily
Target The Most Successful
Collaborations With Regulatory-Like
Intervention. ..................................................... 19
IV. Condemning The Alleged Venture
Conduct Under A “Quick Look” Will
Solidify Disincentives And Increase False
Positives. ........................................................... 20
CONCLUSION ......................................................... 22
Appendix A: List of Amici Curiae
Expert Antitrust Economists.............................. 1a

iii
TABLE OF AUTHORITIES
Page(s)
Cases
American Needle, Inc. v. National
Football League,
560 U.S. 183 (2010) .......................................... 5, 15
Broadcast Music, Inc. v. Columbia
Broadcasting System, Inc.,
441 U.S. 1 (1979) .............................................. 5, 15
Chicago Prof’l Sports Ltd. v. NBA,
95 F.3d 593 (7th Cir. 1996) .................. 7, 11, 14, 15
MLB Prop. Inc. v. Salvino, Inc.,
542 F.3d 290 (2d Cir. 1980) ................................. 11
In re Nat’l Football League’s Sunday
Ticket Litig.,
933 F.3d 1136 (9th Cir. 2019) .............................. 10
NCAA v. Bd. of Regents of Univ. of
Okla.,
468 U.S. 85. 101 (1984) ........................................ 15
Polygram Holdings, Inc. v. FTC,
416 F.3d 29 (D.C. Cir. 2005) ................................ 15
Texaco Inc. v. Dagher,
547 U.S. 1 (2006) ........................................ 5, 15, 21
United States v. Aluminum Co. of
America,
148 F.2d 416 (2d Cir. 1945) ................................. 20

iv
TABLE OF AUTHORITIES—continued
Page(s)
United States v. Westinghouse Elec.
Corp.,
648 F.2d 642 (9th Cir. 1981) ................................ 18
Verizon Communications Inc. v. Law
Offices of Curtis V. Trinko, LLP,
540 U.S. 398 (2004) ................................................ 4
Statutes, Rules and Regulations
Sherman Act Section 1, 15 U.S.C. § 1 .............. passim
Other Authorities
Robert H. Bork, The Antitrust Paradox
(1978) .............................................................. 13, 14
Howard H. Chang, David Evans &
Richard Schmalansee, Some
Economic Principles for Guiding
Antitrust Policy Towards Joint
Ventures, 1998 Colum. Bus. L. Rev.
223 (1998) ................................................... 8, 10, 20
Ronald H. Coase, The Nature of the
Firm, 4 Economica 386 (1937) ............................... 5
Federal Trade Commission & U.S.
Department of Justice, Antitrust
Guidelines for Collaborations Among
Competitors (2000), perma.cc/RX9D38GL ....................................................................... 6

v
TABLE OF AUTHORITIES—continued
Page(s)
Franklin M. Fisher, Christopher
Maxwell, Evan Sue Schouten, The
Economics of Sports Leagues – The
Chicago Bulls Case, 10 Marquette
Sports L.J. 1 (1999) ................................ 7, 9, 11, 12
Walter C. Neale, The Peculiar
Economics of Professional Sports, 78
Quarterly Journal Economics 1
(1964) ...................................................................... 7
Royal Swedish Academy of Sciences,
Economic Governance: The
Organization of Cooperation, The
Prize in Economic Sciences 2009,
Information for the Public 4,
perma.cc/YS8R-GFF6 ............................................ 9
Gregory J. Werden, Antitrust Analysis
of Joint Ventures – An Overview, 66
Antitrust L.J. 701 (1998) ..................................... 14
Oliver E. Williamson, The Economics of
Governance, 95.2 Am. Econ. Rev. 1
(May 2005).............................................................. 6
Oliver E. Williamson, Markets and
Hierarchies: Analysis and Antitrust
Implications (1975) ................................................ 6

INTEREST OF THE AMICI CURIAE
This brief is submitted on behalf of a group of
economists (“Supporting Economists”), listed in Appendix A, with deep experience in assessing collaborative efforts (“ventures”) to create new products (“venture products”), including consideration of incentives
relating to venture formation, initial and ongoing investments, and venture operations. Supporting Economists also have extensive academic and practical experience in assessing (i) whether a venture poses any
risk to competition where venture members have no
ability to compete independent of the venture as competitive firms with respect to the venture product, and
(ii) the circumstances under which a full “rule of reason” analysis would be essential to capture the venture’s likely competitive effects. Supporting Economists have an interest in ensuring that the antitrust
laws are applied to joint ventures in a manner consistent with procompetitive economic principles.1
INTRODUCTION AND
SUMMARY OF ARGUMENT
There is a critical need for the Court to clarify the
application of Section 1 of the Sherman Act, 15 U.S.C.
§ 1, to the internal decision making of legitimate (i.e.,
non-sham) ventures. It would promote competition
and innovation to confirm that a venture that creates
Pursuant to Rule 37.6, amici affirm that no counsel for a party
authored this brief in whole or in part and that no person other
than amici and their counsel made a monetary contribution to
its preparation or submission. Counsel of record for all parties
received notice at least 10 days prior to the due date of amici’s
intention to file this brief. All parties have consented to the filing
of this brief.
1

2
a venture product—which no venture member has
created, or can create efficiently, by itself—may control how to distribute and sell the venture product
without implicating Section 1. That principle, which
by definition poses no risk to ex ante competition, is
fully applicable here because the only restraints Respondents allege are ones on the distribution of the
venture product, NFL Football.2 Importantly, this
case is not about restraints on teams’ individual activities involving non-venture products, such as the licensing of their own trademarks or other intellectual
property.
We also agree with Petitioners and the District
Court that Respondents failed to allege facts necessary to a Section 1 claim under the rule of reason,
which clearly would be the correct antitrust standard
to apply to a non-sham venture’s venture-level decisions on how to distribute and sell its venture products, were such decisions subject to antitrust scrutiny.
If left to stand, the Ninth Circuit’s decision would relieve antitrust plaintiffs of their full rule of reason obligations to allege and prove anticompetitive effects in
a relevant antitrust market.
As economists, however, we further observe that
Respondents fail more fundamentally: because no
NFL venture member can make the venture product
alone, they have not even alleged a restraint on what
we believe to be the proper concern of U.S. antitrust
law: ex ante competition among the venture members.
Instead, they seek to hold the NFL and its members
2

As we discuss below, NFL Football is a product that consists of a
series or network of competitions leading up to playoffs and a
championship game; it is not any one game or one team’s games.
See infra at p. 7.

3
liable for not creating additional ex post competition.
In holding that Respondents have stated a viable antitrust claim, the Ninth Circuit’s decision enables
plaintiffs and courts to ignore the inherently procompetitive features and incentives of ventures that create new products that their members cannot create
alone. As a matter of fundamental economic principles, such an approach is contrary to consumers’ interests and, in fact, poses decidedly anticompetitive
risks in its own right. To allow this case to proceed,
even on a rule of reason basis, creates enormous and
unjustifiable costs that translate into disincentives to
invest in procompetitive ventures.
While Supporting Economists leave it to others to
explain the current ambiguity and conflict in the law
over these issues, the economic underpinnings of the
dispositive principle we propose–or, at a minimum,
full rule of reason pleading requirements–are unambiguous. The incentives to create and invest in outputenhancing collaborative efforts, including disruptive
innovation, are protected and enhanced when the
fruits of those collaborative efforts are captured by the
venture itself. And it is the venture that should determine how best to maximize profits in distributing and
selling the venture product. This naturally would include the ability to decide, and as necessary or desirable change, how the venture product is distributed
and sold, depending on the venture’s ongoing assessment of marketplace conditions.
In the present matter, only the NFL venture itself
can create NFL Football. This necessarily means that
venture control over the distribution and sale of NFL
Football creates no risk of harming ex ante competition, as no individual team can offer the venture product as a “firm” independent of the venture in the first

4
place (or ever). This is inherently true whether considering the sale of live, in-person viewing of games or of
electronic transmissions, including television broadcasts and online streaming. Every game of every season, and its transmission to viewers, is necessarily a
venture-level product.
Under the Ninth Circuit’s approach, the most successful new-product ventures may be targeted with
Section 1 claims whenever their unique innovations
are sufficiently successful to tempt others (including
competitors, distributors or even opportunistic venture members) to seek treble damages for the venture’s ordinary competitive activities. This approach
turns the very success that drives innovation against
any venture whose new venture product leaps to the
lead in the competitive battle. See Verizon Communications Inc. v. Law Offices of Curtis V. Trinko, LLP,
540 U.S. 398, 407-08 (2004) (explaining that the incentives to be able to charge what the market will
bear, including even for alleged monopolists, is what
drives innovation in the first place). As here, the lure
of treble damages will induce antitrust plaintiffs to
ask courts to insert themselves directly into venture
structure and operations, judicially requiring intraventure competition in the sale of venture products –
again, products that can be created only by the venture.
At least in the Ninth Circuit, ventures will thus
be forced to choose between an inefficient and counterproductive (even self-destructive) way of distributing and selling venture products on the one hand,
and costly and distracting antitrust litigation on the
other. This choice not only is a significant deterrent
on investment and innovation, it also is an assured
recipe for false positives in litigation outcomes. The

5
Court should make clear that, because restraints on
venture members as to the distribution and sale of
venture products do not limit ex ante competition,
they are not restraints “in the antitrust sense” (Texaco
Inc. v. Dagher, 547 U.S. 1, 6 (2006) (citing Broadcast
Music, Inc. v. Columbia Broadcasting System, Inc.,
441 U.S. 1, 9 (1979) (“When two partners set the price
of their goods or services they are literally ‘price fixing,’ but they are not per se in violation of the Sherman Act”)), and therefore cannot implicate Section 1.3
In any case, as Petitioners explain, these intraventure
restraints on the distribution and sale of the venture
product cannot be condemned without full rule of reason review, including at the pleading stage. See American Needle, Inc. v. National Football League, 560 U.S.
183, 203 (2010).
ARGUMENT
I.

Critical Procompetitive Incentives Are Promoted By A Principle That A Venture Can
Control How To Sell And Distribute What
Only The Venture Itself Can Create.
A. Ventures That Create Products Are Particularly Procompetitive.

Collaborations, even ones among pre-existing
competitors, can be the optimal solution to complex
ownership or contracting challenges that otherwise
might prevent independent firms with complementary resources from responding to consumer demand.
See generally Ronald H. Coase, The Nature of the

3

This does not mean that antitrust scrutiny should not apply to
restrictions on a venture member’s competitive products that
exist or are created independent of the venture, a case that is
not presented here.

6
Firm, 4 Economica 386 (1937). As the federal antitrust enforcement agencies have observed, even a
competitor collaboration
may enable participants to offer goods or services that are cheaper, more valuable to consumers, or brought to market faster than
would be possible absent the collaboration . .
., allow its participants to better use existing
assets, or . . . provide incentives for them to
make output-enhancing investments that
would not occur absent the collaboration.
Federal Trade Commission & U.S. Dep’t of Justice,
Antitrust Guidelines for Collaborations Among Competitors, § 2.1 (April 2000), perma.cc/RX9D-38GL.
And, in this respect, there are any number of venture
types that enhance efficiency or minimize bargaining
failures, including R&D ventures, product-design ventures, production ventures and marketing or sales
ventures. See Oliver E. Williamson, Markets and Hierarchies: Analysis and Antitrust Implications, 25-26,
39-40 (1975); Oliver E. Williamson, The Economics of
Governance, 95:2 Am. Econ. Rev. 1, 10 (May 2005).
Each of these ventures, in varying degrees, can increase output, quality or efficiency, generating value
that individual firms cannot achieve alone.
A venture that creates a wholly new product by
combining the complementary assets of firms that did
not, and in fact could not, compete alone with respect
to that product is a particularly output-enhancing
(and thus, as an economic matter, desirable) form of
collaboration. By definition, such ventures harness
raw innovation rather than merely attempt to capture
efficiencies in making or distributing pre-existing
products. And, when done through collaboration,

7
these product-creating ventures can be quite successful in driving the creative disruption that often leads
to tangible innovation in the U.S. and global economies.
The NFL is just such a collaboration. Its venture
product, NFL Football, is a series, or network, of competitions leading up to playoffs and a championship
game. Moreover, as their popularity shows, NFL Football broadcasts, from consumers’ perspective, are an
integral part of the product itself–they are how the
vast majority of consumers experience NFL Football.
By definition, NFL Football, including live games and
their broadcasts, cannot be created by any one team
or group of teams. See Franklin M. Fisher, Christopher Maxwell, Evan Sue Schouten, The Economics of
Sports Leagues – The Chicago Bulls Case, 10 Marquette Sports L.J. 1, 5 (1999).4 Indeed, from an economic perspective, one of the main forms of “utility”
that fans find in NFL Football is in following the race
itself, including the yearly quest to make the playoffs
or even win the Super Bowl. See Walter C. Neale, The
Peculiar Economics of Professional Sports, 78 Quarterly Journal Economics 1, 3-4 (1964). That “race utility” (id. at 3), and each game that makes up the race,
are part of a product that can be created only by the
venture itself. The members of the NFL thus are not
each other’s competitors with respect to the venture
product, as they cannot offer the product without the
venture. This point is equally true across industries:
4

Dr. Fisher was the Jane Berkowitz Carlton and Dennis William
Carlton Professor of Microeconomics at MIT, a Director of the
National Board of Economic Research and a past recipient of the
John Bates Clark Medal. He served as the economic expert for
the NBA in Chicago Prof’l Sports Ltd. v. NBA, 95 F.3d 593 (7th
Cir. 1996) (“Bulls II”).

8
whether in league sports, high tech, pharmaceuticals
and biologics, or elsewhere, ventures that create
wholly new products for consumers do not involve, let
alone reduce, pre-existing competition as to those
products.
As a matter of economics, this point should be
front and center in evaluating any antitrust challenge
to how a venture and its members distribute and sell
their venture products.
B. Investment Incentives Are Critical To
Venture Formation And Competitive Positioning.
A fundamental economic tenet of venture formation and operation is that investment incentives
are fostered when venture members can capture the
full value of what their venture has created. See, e.g.,
Howard H. Chang, David Evans & Richard Schmalansee, Some Economic Principles for Guiding Antitrust
Policy Towards Joint Ventures, 1998 Colum. Bus. L.
Rev. 223, 238 (1998) (“Firms must generally expect to
appropriate a substantial position of the benefits from
their investments to make those investments in the
first place”). To capture the value it creates, the NFL
venture as a whole, like any other legitimate venture
that creates its own product, must be able to decide
how to structure itself and how best to make venture
products and bring them to the marketplace.
Allowing ventures to make these decisions centrally is fundamentally consistent with ventures’
unique attributes. Economists have long agreed that
ventures often are the optimal and most efficient form
of organization, for example, when parties wish to
carry out activities that involve relationship-specific
investments, where transactions are complex and

9
non-standard, or, as Professor Williamson’s work has
shown, where the parties are mutually dependent on
outcomes, such as where their assets, “either physical
assets or knowledge, . . . are only valuable inside a relationship.” Royal Swedish Academy of Sciences, Economic Governance: The Organization of Cooperation,
The Prize in Economic Sciences 2009, Information for
the Public 4, perma.cc/YS8R-GFF6 (discussing Professor Williamson’s work upon his receiving the 2009 Nobel Prize for Economics). The NFL is just such a venture, particularly with respect to distributing and selling the venture product, NFL Football.5 The NFL venture is best suited to negotiate the complex and risky
broadcasting arrangements on which its success depends.
Accordingly, investment incentives require that
league ventures, like any other firm that makes a
product, should determine how best to maximize revenues and profits from the distribution and sale of

There also is every good economic reason for the NFL to organize itself the way it does with localized teams and ownership:
“League sports demand a form of organization in which local autonomy is both present and seen to be so.” Fisher et al., 10 Marquette Sports L.J. at 6. Not only does this ensure that each team
has specific local knowledge and contracts that can benefit the
venture as a whole, it also generates fan interest and loyalty.
Hence, to “preserve interest in the league’s product, teams must
be seen to act independently in competing for players and for
coaches, and in competition on the field.” Id. But the extent of
this local independence and resulting competition is itself created and defined by the NFL venture; they do not exist in the
abstract absent the venture. And the venture’s own determination that some of its elements should be the product of intraventure competition does not mean that the venture could not also
reasonably decide to handle other aspects of its business, including the distribution of broadcast rights, centrally.
5

10
their venture products. Here, the venture alone creates NFL Football, so the venture, not any individual
member, should determine how best to distribute and
sell what the venture makes. That other sports-league
ventures might decide to allow member clubs to sell
broadcast rights (see In re Nat’l Football League’s
Sunday Ticket Litig., 933 F.3d 1136, 1154 (9th Cir.
2019) (citing the National Hockey League and Major
League Baseball)) does not change the fact that the
decision itself belongs to the venture, not to individual
clubs pursuing their own individual interests.
C. The Avoidance Of Free Riding On Venture Success Is Central To Protecting
Those Incentives.
Many ventures, not just professional sports
leagues, must confront incentives for free riding and
opportunism that naturally develop with the venture’s success. The question in the present case is
whether the NFL venture, in distributing and selling
the venture product, should be able to confront those
incentives by preventing members from also distributing and selling the venture product as they wish.
From an economic perspective, the answer is yes,
based on the long-understood value of addressing negative externalities that can arise in ventures, especially where the venture sells the venture product.
In economics, a negative externality exists when
the actions of one firm impose a cost to others that
such firm has not had to take into account in its own
profit and loss calculation. Free riding is a classic example. Free riding includes, for instance, a venture
member taking advantage of the venture’s success to
sell venture products on its own without accounting
for the impact on the venture and its other members.
See generally Chang et al., 1998 Colum. Bus. L. Rev.

11
at 238, 244-46. Such sales of the venture product, over
the objection of the venture as a whole, pose a particularly acute risk when, as with the NFL, the venture
itself sells the venture product. See Fisher et al., 10
Marquette Sports L.J. at 10-11.
In the specific context of sports leagues, free riding by individual teams is a fundamental negative externality that must be, and regularly is, addressed.
Outside of the broadcast area, for example, leagues
have adopted a variety of mechanisms to address the
licensing of team-owned trademarks and other IP, an
activity that may involve no more than one team’s exploitation of its own popularity, or, conversely, could
involve a team’s exploitation of the success of the
league as a whole, and of other teams’ investments in
that success. Such externalities typically are addressed through exclusive group licensing. See MLB
Prop. Inc. v. Salvino, Inc., 542 F.3d 290, 340 (2d Cir.
1980).
The specific factual circumstances–such as the
IP’s economic significance apart from the venture
product–might warrant treating exclusive group licensing of team IP as affecting something other than
just the venture product. Here, in contrast, because
the games and their broadcasts form the venture
product, free riding with respect to the broadcasts is a
negative externality of the most fundamental concern;
it threatens to undermine the incentives to create and
maintain the league product itself. Similarly, in Bulls
II, the Chicago Bulls created a significant negative externality when they took a free ride on the NBA to sell
games nationwide over the WGN superstation. See
Bulls II, 95 F.3d at 596. As Dr. Fisher explained, this
popularity was “not merely a consequence of the Bulls’

12
own efforts,” but stemmed also from league-wide efforts to promote the game, as well as other teams’ efforts. Fisher et al., 10 Marquette Sports L.J. at 11. To
permit the Bulls, over the league venture’s objection,
“to reap the entire reward for such efforts would be to
give them a free ride.” Id. In turn, this free riding “discourages efforts [by other members and the league]
that would otherwise be productive”–e.g., restricting
teams from separately making their own television arrangements so that the venture can “offer its chosen
carriers with a guarantee of exclusivity in national
telecasts.” Id.
The same incentives to create negative externalities exist as to the distribution and sale of the NFL’s
venture product, including offering exclusivity for the
Sunday Ticket broadcast product. Accordingly, as a
matter of fundamental economic principles, the
league should be able to check individual teams’ opportunistic incentives to exploit the venture’s investment in the venture product for their own gain. No
league rule blocking these negative externalities
should be subject to antitrust condemnation without,
at a minimum, full rule of reason review. By allowing
plaintiffs to proceed with their challenge without satisfying the pleading requirements of the rule of reason, the Ninth Circuit’s decision penalizes, and thus
discourages, conduct that is likely to be procompetitive.
Moreover, as we discuss further in the following
section, a venture rule that counters these externalities merely by determining how the venture product
may be sold or distributed is not, as a matter of economics, a restraint of trade in the first place. By subjecting a rule that limits only the venture product’s
sale and distribution to antitrust scrutiny at all, the

13
Ninth Circuit’s decision addresses a nonexistent competition problem and disincentivizes new-product
ventures by imposing unnecessary regulatory costs.
II. There Is No Risk To Ex Ante Competition
From A Principle That Permits Collaborations To Control How They Distribute And
Sell What Only They Can Make.
A. At Formation, No Ex Ante Competition
Exists In The Sale Of The Venture Product.
The precise question of how antitrust law should
approach a venture in the circumstances presented
here was addressed perceptively by Judge Bork in The
Antitrust Paradox. Framing the analysis of a nonsham venture’s alleged price fixing, market divisions
and other horizontal restraints, Judge Bork distinguished between “[w]hen the parties [to the venture]
are capable of operating alone” and venture conduct
that can “only be carried out jointly.” Robert H. Bork,
The Antitrust Paradox 278 (1978). As to the latter category, Judge Bork observed:
Perhaps the leading example is league sports.
When a league of professional lacrosse teams
is formed, it would be pointless to declare their
cooperation illegal on the ground that there
are no other professional lacrosse teams. In
this case the league is best viewed as being the
firm, and horizontal merger limitations are inappropriate…. The upshot is that when integration is essential if the activity is to be carried on at all, the integration and restraints
that make it efficient should be completely lawful.

14
Id. at 278-79 (emphasis added). In contrast, when integration is useful, but not essential, ancillary restraints require further inquiry and justification. Id.
at 279.
Similarly, as Dr. Gregory Werden has observed, a
joint venture’s restraint on competition that “would
not have existed absent the joint venture” should “not
[be] analyzed separately from the joint venture itself.”
Gregory J. Werden, Antitrust Analysis of Joint Ventures – An Overview, 66 Antitrust L.J. 701, 711
(1998).6 Thus, “at least when its participants could not
have produced that product,” Dr. Werden concludes
that “it is not price fixing for a joint venture to set the
price of [its] product,” just as a joint venture’s raw material purchase “from one supplier rather than another . . . is not a group boycott.” Id. at 705 n.18. And,
just as the Seventh Circuit suggested that “the NBA
is best understood as one firm when selling broadcast
rights” (Bulls II, 95 F.3d at 599-60), Dr. Werden explains that a joint venture such as the NFL should be
treated as a “single entity” in “its ordinary actions as
a market participant” (Werden, 66 Antitrust L.J. at
705 and n.17 (citing Bulls II, 95 F.3d at 599-60)).
In sum, what both Bork and Werden have shown
is that, when a venture imposes limitations on venture members’ distribution and sale of a venture product, including restraints on free riding, it cannot impair competition as to the venture product, and hence

6

Until his recent retirement, Dr. Werden was the Senior Economic Counsel at the Antitrust Division of the Department of
Justice and a recipient of the Attorney General’s May C. Lawton Lifetime Service Award. Dr. Werden wrote the referenced
article in his individual capacity while he was Director of Research in the Antitrust Division’s Economic Analysis Group.

15
there is no competition at risk in treating the restraints as the acts of a single firm. By contrast, the
Ninth Circuit’s implicit premise that even restraints
such as these must be tested under the rule of reason
ignores these crucial insights and undermines a venture’s ability to take on interbrand competition from
outside the venture, such as competition sports
leagues face from each other. See Bulls II, 95 F.3d at
600 (citing competition the NBA faces “with a thousand other producers of entertainment” in the distribution and sale of broadcast rights).
From this perspective, the NFL’s internal decision-making with respect to the distribution and sale
of NFL Football inherently does not risk a reduction
in competition among member teams that warrants
antitrust concern. This is not a situation where competitors existed ex ante, but then placed all their competitive assets into a venture–something that requires
antitrust scrutiny at the formation stage. See Dagher,
547 U.S. at 4 (noting that the formation of the joint
venture whose pricing was at issue “was approved by
consent decree . . . by the Federal Trade Commission,”
as well as by four state Attorneys General). Nor is it
even a circumstance where a venture member has created its own product and can compete independently
of the venture–as with, for example, team IP or music
performance rights, where the rights holder can
choose to participate in a new group license or continue to compete independently. See, e.g., American
Needle, 560 U.S. 183 (team-owned IP); Broadcast Music, 441 U.S. at 11 (individual copyrights); NCAA v.
Bd. of Regents of Univ. of Okla., 468 U.S. 85, 89, 106
(1984) (independent colleges); Polygram Holdings,
Inc. v. FTC, 416 F.3d 29, 36-37 (D.C. Cir. 2005) (upholding liability for market division as to products

16
“not part of the venture”). The NFL’s alleged restraints here, by contrast, are the easiest case: the
venture product would not exist without initial and
ongoing cooperation, and no team has its own NFL
Football product or can make it alone; thus, any restraint as to venture product output raises no risk of
reducing the ex ante competition that warrants antitrust protection. In these circumstances, it is the marketplace that should determine whether the venture’s
output-related decisions satisfy consumer demand.
B. In Operations, No Team Can Compete As
A Firm Independent Of The Venture
Product.
In the face of this indisputable lack of actual or
potential ex ante competition between any venture
team and the NFL venture in the creation or sale of
NFL Football, the Ninth Circuit appears to avoid economic reality by focusing on the ex post ability of
teams to control the facilities in which they play their
NFL games. The decision’s logic appears to be that, if
a team can control who enters its stadium, it then controls who can create broadcasts of its games, which in
turn means that each team, in the court’s view, can
license broadcast rights to its games on an individual
basis. Based on that premise, the court views competition among teams in the broadcast of NFL Football
as not materially different from competition among
teams as to non-venture products such as the licensing of team IP (e.g., for hats bearing a single team’s
logo).
This sequence of thoughts makes no economic
sense. First, as discussed above, no NFL team is a
competitor in the distribution and sale of NFL Football broadcasts unless it can create the NFL Football
venture product, including broadcasts, by itself in the

17
first place. But these team products are not possible
without the cooperation of the league and other teams.
By contrast, each team can create products as an independent firm in the sale or licensing of its own freestanding IP, such as logo-bearing clothing, without
the cooperation of the other teams (even if, just as
with any given songwriter’s copyrights, the value of
that one team’s IP may be much less when distributed
by itself).
Second, and similarly, as for IP specifically, there
is no basis for the suggestion that the ability to control
a camera crew’s access to the stadium allows an NFL
team to make or sell an NFL Football broadcast without cooperation as to the IP of the NFL and the other
NFL teams (most obviously that day’s opponent). The
diversely-owned IP inherent in the transmission of an
NFL game is a fundamental component of the NFL
Football product itself. Cooperation with respect to
that IP, in addition to the creation of the ventureproduct game itself, makes the broadcast product possible; there is no marketplace reality where this is not
the case.
In the court below, a group of economists supporting plaintiffs took the position that each team could
produce and broadcast NFL Football on its own (with
just its opponent of the day), but chose instead to pool
its broadcast rights in order to anticompetitively maximize revenues. As they characterized the choice,
these economists argued that “[e]ach team owner has
the opportunity to behave in the same manner as college independents, or the opportunity to adopt the local/national approach of other pro sports leagues.”
Brief of Amici Curiae Economists in Support of Plaintiffs-Appellants and in Support of Reversal, No. 1756119, p.16 (Feb. 12, 2018) (emphasis added).

18
This argument is seriously misplaced. “College independents” embody the opposite of a league product.
The whole premise of the NFL venture, which jointly
produces and sells NFL Football, is that the teams by
definition are not “independents”; on the contrary, the
venture and its product form a highly interdependent
enterprise, both economically and functionally, that
literally would not exist if teams unilaterally acted as
“independents,” separately arranging for their own
games and broadcasts. Moreover, where other leagues
have chosen to allow some individual team out-ofmarket broadcast licensing, those decisions are necessarily made at the venture level and account for the
very externalities that are inherent in professional
sports league ventures.
Finally, as we explained above, the notion that
members of a legitimate venture should not be allowed or encouraged collectively to seek to maximize
revenues of the venture–created product is contrary to
the most basic economic theory of a “firm” and to the
most fundamental incentives that generate venture
formation and innovation in the first place. Respondents’ argument for a judicially forced ex post shortterm increase in output could be applied just as easily
to the conduct of any firm whose unilateral choices
about how to sell its product did not satisfy the wishes
of some buyers. But, as the Ninth Circuit has observed, “[t]he antitrust laws do not grant the government a roving commission to reform the economy at
will” (United States v. Westinghouse Elec. Corp., 648
F.2d 642, 648 (9th Cir. 1981)), and we believe this
same observation should apply equally to private
plaintiffs as well. The short-run regulatory solution
Respondents seek here, apparently designed to force
the NFL to provide even more competition than it did
through its creation, threatens long-run incentives to

19
create the very products they want more of. We discuss the economic implications of this threat in the
next section.
III. Antitrust Challenges To Purely Intraventure Restraints Necessarily Target The Most
Successful Collaborations With RegulatoryLike Intervention.
If, as here, there is no ex ante competition at risk,
yet a court allows antitrust plaintiffs to seek a remedy
forcing a highly successful venture to create intraventure competition among its members, how would we
view that result economically? The answer is disturbing from a market performance perspective. Specifically, the ventures most at risk from judicial intervention under Section 1 are those that achieve the most
valuable innovations–the ones that either enjoy widespread consumer acceptance or uniquely answer customer demand.
Further, because judicially-forced intraventure
competition between venturers that were not ex ante
competitors creates a relationship that had never existed between them–again, teams cannot participate
in the marketplace except through the venture–any
alleged reduction in price and profits that would otherwise accrue to venture members in the but-for world
(itself a questionable proposition) would be regulatory
in nature. The remedy could not restore non-existent
ex ante competition; instead, it would simply reallocate the venture’s surplus between the venture and its
members, with no reason to expect increased output
or quality, or lower prices to consumers.
Indeed, if the Sherman Act is used to condemn
profit maximization by legitimate ventures in the sale
of newly-created venture products, absent at least full

20
rule of reason scrutiny, then antitrust law will have
become a de facto regulatory mechanism to micromanage ex post the internal decisions of legitimate ventures rather than an enforcement tool to address anticompetitive behavior. And in the process, the law
will have embraced the danger that Judge Learned
Hand warned of: “The successful competitor, having
been urged to compete, must not be turned upon when
he wins.” United States v. Aluminum Co. of America,
148 F.2d 416, 430 (2d Cir. 1945).
IV. Condemning The Alleged Venture Conduct
Under A “Quick Look” Will Solidify Disincentives And Increase False Positives.
Absent clear direction from this Court, it may be
tempting for courts, as the Ninth Circuit did here, to
ignore the inherently procompetitive incentives motivating a venture’s decision that it alone will determine how to sell the venture product. Such a myopic
view of antitrust jurisprudence would hinder consideration of economic proof of anticompetitive effects
(including, for example, market definition and “but
for” harm to output, price or quality). This has at least
two second-order effects that are quite important to
the efficient operation of markets and allocation of resources relating to venture formation and innovation.
First, the feedback effects from Section 1 litigation
risks are quite real for legitimate ventures, as any significant or ongoing false positives can dramatically
undermine investment incentives. See Chang et al.,
1998 Colum. Bus. L. Rev. at 266. The principle applies
directly when, as here, prospective venture members
join a venture and make ex ante investments, but then
are exposed to ex post risk of a court determining that
the venture must, in effect, compete against itself if
and when it becomes particularly successful.

21
Second, the risks of false positives are particularly
acute in the venture setting. Ventures that create a
new product and participate as sellers in the marketplace itself, are, for efficiency and governance reasons,
very likely to coordinate across any number of price
and non-price dimensions in selling their venture
products. Yet, this is precisely what leads to significant false positives, condemning ordinary venture
conduct as per se violations or through a quick look.
See, e.g., Dagher, 547 U.S. at 7 and n.3 (rejecting either per se or quick-look liability for the “internal pricing decisions of a legitimate joint venture”). By contrast, confirmation that it cannot be “price fixing for a
joint venture to set the price of a product it produces,
at least when its participants individually could not
have produced that product” (Werden, 66 Antitrust
L.J. at 705 and n.18), and thus that the restraints at
issue here are not restraints “in the antitrust sense”
(Dagher, 547 U.S. at 6), would ensure that “meritless
group boycott and price-fixing claims, which could erroneously be decided under the per se rule, [are] rejected as a matter of law” (Werden, 66 Antitrust L.J.
at 705 and n.18).
Dr. Werden effectively predicted the false positive
that this Court’s Dagher decision reversed, as well as
the false positive embodied in the Ninth Circuit’s decision here as to the Sunday Ticket venture product.
It cannot be a violation for the NFL to determine how
to distribute and sell NFL Football when member
teams “individually could not have produced that
product.” Id.
At the bare minimum, courts must test these alleged anticompetitive effects and inherent procompetitive justifications with full rule of reason inquiry–and

22
plaintiffs must allege facts that would support liability based on the full rule of reason. As it is, the ambiguity in circuit law the Ninth Circuit’s decision has
created encourages lower courts to second-guess the
output decisions of ventures and to continue to mistake the ordinary marketplace activities of legitimate
ventures in the distribution and sale of venture products for pernicious restraints of trade.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
CHRISTOPHER J. KELLY
Counsel of Record
Mayer Brown LLP
Two Palo Alto Square,
Suite 300
Palo Alto, CA 94306
cjkelly@mayerbrown.com
(650) 331-2000
Counsel for Amici Curiae
Expert Antitrust Economists
APRIL 2020

APPENDIX

1a
APPENDIX A
List of Amici Curiae
Expert Antitrust Economists
Rosa M. Abrantes-Metz, Global Economics Group and
NYU Stern School of Business
Michael I. Cragg, The Brattle Group
Kenneth G. Elzinga, University of Virginia
Daniel L. McFadden, University of California, Berkeley
Janusz A. Ordover, NYU Stern School of Business
Ariel Pakes, Harvard University
Richard Schmalensee, Massachusetts Institute of
Technology
Marius Schwartz, Georgetown University
Joshua D. Wright, Scalia Law School at George Mason University

